spent by the Executive Director on CPB projects for the periods June 1, 2009 to
September 30, 2009 and June 1, 2010 to November 30, 2010. This information is
available upon request from our office.

This report presents the conclusions of the OIG and the findings reported do not
necessarily represent CPB management’s final position on these matters. Accordingly,
the report contains recommendations the OIG believes would be appropriate to resolve
these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Based on RB’s response to the draft
report, we consider recommendation 1a and b unresolved. Recommendation 4 is
directed to CPB and is also considered unresolved. Recommendations 2 and 3 are
considered resolved but open pending management decisions by CPB accepting RB’s
corrective actions and collection of overpayments.


                                   BACKGROUND
RB is a nonprofit corporation founded by a group of farm workers, artists, and
professionals with the mission of providing access to the airwaves for the Mexican-
American community. They believed that radio could be an effective way to reach
fellow farm workers with programming that would strengthen their culture and improve
their lives. They succeeded in their vision to create an independent, Hispanic-controlled
organization, which reflects the values and traditions of the Hispanic community.

RB first aired on July 4, 1980, and has grown to become a network of five stations in
rural California. RB is the licensee of KSJV the lead radio station in the network located
in Fresno, California. In addition, the network includes KTQX in Bakersfield, KMPO in
Modesto, KHDC in Salinas, and KUBO in El Cento. RB has matured from a station that
was primarily focused on Hispanic groups and issues, to become a multicultural
organization. Although RB broadcasts primarily in Spanish and English, it has
expanded its programming to include Hmong, Portuguese, and Mixtec, an indigenous
language spoken in Oaxaca, Mexico.

CPB awards annual CSG grants to public television and radio stations based on the
amount of NFFS claimed by all stations on their AFRs. The radio CSG pool of funds is
adjusted by base grant awards and the Rural Listener Access Incentive Fund reserve.
The funds that remain are called the Incentive Grant Pools. The Incentive Rate of
Return (IRR) is calculated by dividing the Incentive Grant Pools by the total amount of
NFFS claimed by all radio stations. The IRR is then multiplied by the station’s reported
NFFS to calculate the incentive award amount of the station’s total CSG. There is a two
year lag between the reported NFFS and CPB’s calculation of the fiscal year’s CSG
amount. For example, CPB used the NFFS claimed by RB on its FY 2007 AFR to
determine the amount of the CSG the station received in FY 2009.


                                            2
During our audit period CPB paid RB almost $4.5 million in grant funds, per Exhibit A.
RB’s FY 2009 and 2010 AFRs are presented on Exhibit B. NFFS reported for both
years is presented on Exhibit C. The final financial reports for the five production grants
audited are presented in Exhibits D-H. RB’s audited financial statements for the periods
ending September 30, 2009 and September 30, 2010 reported total revenues of
$3,634,747 and $4,946,560, as well as, functional expenses of $3,428,597 and
$4,487,848.


                             SUMMARY OF RESULTS
We examined management’s assertions of compliance with CPB’s CSG grant
agreement terms, Certification of Eligibility requirements, Act requirements, and NFFS
Guidelines for the periods ending September 30, 2009 and September 30, 2010. We
also examined expenditures for selected production grants, presented in Exhibits D-H,
for the period November 1, 2007 – November 30, 2010 for compliance with grant
requirements. Management is responsible for compliance with those requirements.
Our responsibility is to express an opinion on management’s assertions about its
compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and, accordingly, included examining, on a test
basis, evidence about RB’s compliance with those requirements, and performing such
other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion. Our examination does not
provide a legal determination on RB’s compliance with specified requirements.

Our examination disclosed the following issues of material non-compliance with CPB
grant agreement requirements, NFFS financial reporting requirements, and
Communications Act requirements.

   •   questionable expenditures of $285,760 for indirect costs, direct salaries, and
       fringe benefits, and in-kind contributions of $7,823 for satellite services;
   •   over-reported NFFS of $28,150 resulting in excessive CPB payments of $1,827
       during FY 2011, classified as funds put to better use; and
   •   material non-compliance with the statutory provisions of the Act for conducting
       open public meetings, maintaining an active Community Advisory Board (CAB),
       making financial and EEO records available to the public, and establishing
       operating procedures explaining how it complied with the five requirements of the
       Act.

In our opinion, because of the effect of the material non-compliance issues described
above, RB has not complied with the aforementioned requirements for the periods
ending September 30, 2009 and September 30, 2010.




                                             3
                       FINDINGS AND RECOMMENDATIONS

Non-Compliance with Grant Requirements

Our examination found questionable costs of $285,760 that lacked adequate supporting
documentation. These items included indirect costs of $167,668, as well as direct
salary and fringe benefit costs of $118,092. Additionally, we found that $7,823 claimed
as in-kind contributions for satellite services were not adequately supported.
Specifically, we found that RB did not:

    •   use consistent indirect cost plans to claim the same indirect cost categories using
        different rates for different CPB grants;
    •   keep time records to support direct salaries charged to CPB grants; and
    •   provide an adequate allocation basis to support in-kind costs claimed for satellite
        services.

These conditions were materially non-compliant with CPB grant terms and conditions.

CPB’s Terms and Conditions for Television, Radio and Other Media Production Grants,
Section G. states:

    Records. A Grantee must keep books, records, and accounts relating to the
    Grant and the Grant Project sufficient to:
     (i) enable CPB to verify all direct costs, overhead, and administrative
    allocations associated with the Grant Project;
     (ii) disclose fully the amount and use of the proceeds of the Grant, the Total
    Project Cost, and the amount and nature of any portion of the Total Project
    Costs supplied by sources other than CPB; and
     (iii) permit an effective audit.

These terms and conditions require grantees to maintain sufficient records to
support all costs charged to CPB grants i.e., direct, indirect, and allocations of costs
to permit an effective audit. Because RB did not maintain adequate supporting
documentation we could not verify the reasonableness of the costs charged to CPB
grants.

    Inconsistent Indirect Cost Plans

We found that RB used inconsistent indirect cost plans to support indirect costs
claimed under each of the three radio production agreements1 and the two Los
Angeles (LA) Latino Program Service agreements audited. More specifically, RB
used different indirect cost plans for each of the five agreements even though they
claimed the same indirect cost categories such as, business manager’s salaries,
fringe benefits, and utilities, to name a few, under the five different indirect allocation
1
 The three production agreements are the “2008 Election Coverage,” “Noticiero Latino,” and “The
Economic Crisis and Latinos: Access to Unemployment Help.”

                                                  4
plans audited, as illustrated in Exhibit I. The plans presented charged different
percentage rates for the same cost category during the same fiscal year to different
CPB grants. The plans did not provide a rationale for the percentages claimed by
cost category to provide a basis to evaluate the reasonableness of the
methodologies used.

Specifically, we found that cost categories claimed as indirect costs were also used
to claim costs directly to some of the grants, as well as, in-kind costs. The executive
director’s salary costs were claimed directly on some grants and indirectly on others.
We could not verify that the direct and in-kind costs charged to the grants were
appropriately adjusted from the total costs available by cost category that was also
used to claim indirect costs.

Finally, we found that RB applied the grant agreement indirect cost rates to the
project’s total direct costs that included amounts spent on professional fees.
Contracted services generally do not receive any benefit from an organization’s
overhead activities, and if they do it is generally at a significantly reduced rate.

RB stated that its indirect cost methodology met the spirit and intent of CPB’s
Financial Reporting Guidelines (Guidelines) and that their “Grantee-Developed
Method” had been pre-approved by CPB. They also cited the Federal Acquisition
Regulations (FAR) and the guidelines promulgated by the federal General Services
Administration in defending their use of different indirect cost plans which included
charging different percentages for the same cost category during the same fiscal
year for the various projects.

We do not agree with RB’s interpretation of the Guidelines on indirect costs, CPB’s
Guidelines address institutional stations claiming indirect costs as revenues as
NFFS. CPB’s guidance was not designed to approve indirect costs rates claimed
under production or other CPB grant agreements. Further, FAR does not apply to
CPB agreements; it is generally applied to for-profit government contractors. OMB
Circular A-122 does provide Cost Principles for Non-Profit Organizations receiving
federal funds. Under the Circular’s general principles it states that allocable indirect
costs be accorded consistent treatment and be determined in accordance with
generally accepted accounting principles. Further, a cost may not be allocated to an
award if any other costs incurred for the same purpose, in like circumstances, has
been assigned to an award as a direct cost.

Additionally, RB’s documentation showing CPB’s approval of the indirect rates
consisted of correspondence addressing numerous grant issues. The
documentation provided did not demonstrate RB’s quantitative calculation to justify
charging different rates for the same indirect cost categories to different CPB grants
during similar time periods, e.g., charging 20 percent of the Business Manager’s
time to one grant, 4 percent to a second grant, and 5 percent to a third grant, per
Exhibit I. Under CPB’s Guidelines, grantees are required to submit their Grantee-
Developed Method for calculating indirect costs for prior CPB approval and it must

                                              5
be in sufficient detail to demonstrate its quantitative calculation used in determining
the self-developed indirect administrative support valuation.

Alternatively, to allow some indirect costs under these CPB agreements, we
developed indirect rates for the three fiscal years audited based on the cost
categories claimed by RB. We used a simplified allocation methodology using the
functional expense information presented in RB’s audited financial statements, per
Exhibit K. We calculated a rate by using the Management & General reported
information as a pool of indirect costs to be distributed across the other functional
categories. We adjusted the direct costs by the professional fees presented in the
functional expenses to eliminate contracted services costs to calculate an indirect
rate for each fiscal year. We calculated the following yearly rates for each year, per
Exhibit J.

                              Calculated Indirect Rates

                           Fiscal Year           Indirect Rate
                              2008                   8.9%
                              2009                   8.4%
                              2010                   7.1%

Our calculated rates were comparable to the 7 percent and 6.6 percent indirect rates
in the two LA Program Service grant agreements. Likewise, as presented in Exhibit
I, our rates were also comparable to the plans presented by RB to support many of
the indirect cost line items for the other three production agreements, but
significantly lower than the 15 percent rate included in the three CPB production
grant audited.

Applying the rates we calculated to each of the five agreements’ direct costs
reported by RB and shown in Exhibits D-H, we questioned $167,668 in indirect costs
claimed, as calculated in Exhibit K.

       Lack of Documentation for Direct Time Charged to CPB Projects

Our examination found that time charged by RB personnel to CPB grant projects
was not documented. While hourly employees prepared time sheets, their time
sheets did not indicate the projects or activities that they worked on. Their
timesheets only indicated the number of hours worked each day. Executive and
professional staff members did not prepare time sheets.

The lack of documentation for time worked on CPB projects was problematic
because many of the staff members’ salary and fringe benefits were charged to
multiple CPB projects at the same time, as well as, non-CPB activities. As a result,
we could not determine whether the salary and fringe benefit charges claimed under
the CPB grants were reasonable and not duplicative. As previously discussed,
grantee’s are required to keep books, records, and accounts sufficient to enable


                                             6
CPB to verify all direct costs, overhead, and administrative allocations associated
with grant projects.

Without documentation to verify direct salary costs claimed on the CPB grants, we
developed an allocation methodology based on revenues to support allocating direct
salaries and fringe benefits to CPB’s grants. Specifically, we used the production
revenues and total revenues reported in RB’s audited financial statements to
equitably allocate direct salaries and benefits to CPB grants and non-CPB activities.
Exhibit M calculates this allocation rate using CPB production revenues and other
production revenues based on total production revenues. To illustrate, the FY 2008
CPB production revenue of $593,044 was 50 percent of that year’s total RB
production revenue ($593,044/$1,185,919). Similar rates calculated for FYs 2009
and 2010 were 51.4% and 71.9% respectively. We used these percentages to
allocate RB production employees’ salaries between CPB and non-CPB production
activities.

Exhibit N shows that the CPB grant revenues for FYs 2008-2010 were 28.4 percent,
32 percent, and 53.3 percent, respectively of total RB revenues. These percentages
were used to allocate RB’s executive director’s salary to CPB grants and all Radio
Bilingüe activities based on total revenues (production and non-production) reported
in the audited financial statements. Using the percentages shown in Exhibit M and
N, we calculated questionable CPB salary and fringe benefit costs for multiple
positions totaling $118,092 for the fiscal years we audited.

Specifically, we calculated the allowable and questioned direct salary and fringe
benefit expenses on a monthly basis for FYs 2008 through 2011 for its executive
producer, producer, engineer, database coordinator, and satellite chief. For
example, RB claimed $2,910 in salary for one position as a direct expense from
November through June, and $4,497 in July, August and September for a total of
$36,768. We took the monthly salary for this position from the IRS Form W-2, and
multiplied it by the percentage of CPB production revenue to total production
revenue for each year. Then, we multiplied the allowable monthly charges by the
number of months that salary costs exceeded CPB’s allowable percentage and
subtracted this amount from the total salary costs claimed to identify questionable
salary costs. Questionable salary costs for the other employees were calculated in
the same manner.

For questioned fringe benefits, we used the fringe benefit rates identified in the CPB
approved budgets. All the production projects had a 20 percent fringe benefit rate
except The Economic Crisis and Latinos: Access to Unemployment Help project,
which was modified to a 23 percent rate. We multiplied that percentage rate by the
questioned direct salaries to develop questioned fringe benefit costs.




                                            7
Our calculation of questioned costs by project and fiscal year is presented in Exhibit
L and is summarized in the following table.

                       Questionable Salaries & Fringe Benefits

    Fiscal Year        Salaries         Fringe Benefits          Total
    2008                  $22,001                $4,400            $26,401
    2009                  $39,221                $7,944            $47,165
    2010                  $22,201                $4,747            $26,948
    2011                  $14,648                $2,930            $17,578
       Total              $98,071               $20,021           $118,092

RB believes that the percentages it used to accumulate direct salary and fringe
benefit time charges to CPB grants was an accurate reflection of the actual time
expended. As a result of our findings they prepared ad hoc lists of activities that
occurred during the grant periods to support their direct salary and fringe benefit
claims. Based on their reconstruction of the Executive Director’s time charges they
found that he spent more time than required by the grant agreement on the LA
Program Service Grant, Phase 2 project during 2009 and 2010. However, the lack
of contemporaneous time sheets or other documentation of actual time spent on
these grant projects prevented us from accepting the documentation developed after
the fact.

RB’s stated that the Executive Director worked 382 hours during 2009 and 749
hours during 2010 on the LA Program Service Grant, Phase 2 project. This was 15
percent over the 2009 grant budget allowance of 40 percent and 12 percent over the
2010 allowance. However, our review of the reconstructed time charges found that
134 hours of the Executive Director’s time during 2009 was incurred after an 8-hour
workday was completed or occurred during weekends. Likewise during 2010 we
identified 239 hours were incurred after an 8-hour workday or occurred during
weekends.

        Lack of Documentation to Support In-Kind Contributions

Our examination found that in-kind contributions for satellite services were not
adequately documented to enable us to verify the reasonableness of the $10,000
claimed on final financial reports to CPB for the “2008 Election Coverage” and
“Noticiero Latino” projects, per Exhibits F and G. As a result, we have questioned
$7,823 of the $10,000 claimed for in-kind contributions of satellite services.

RB records show annual incurred satellite costs of $30,000, which supported all of
its operations. The documentation provided by RB to support in-kind contributions
identified satellite contributions of $4,125 for the “2008 Election Coverage” and
$6,300 for the “Noticiero Latino” projects. However, this documentation did not
adequately demonstrate the reasonableness of these charges or provide a
methodology of how the $30,000 in annual satellite costs was equitably distributed
across all of RB’s broadcast activities to enable us to verify the reasonableness of


                                            8
the $10,000 that was reported against the CPB grants. The methodology RB
presented for claiming in-kind contributions included a portion based on a calculation
of estimated satellite usage, which we allowed, and an additional estimate of the
intrinsic value that these programs provided in the context of all of RB’s satellite
program offerings. We questioned the $7,823 estimate of intrinsic in-kind value
because there was no methodology to capture these costs.

RB stated that their estimate of intrinsic value should be included in its final reports
of costs submitted to CPB. They said the satellite service routinely provides its 93
affiliate stations with these programs and even though they do not charge their
affiliates for these programs; they have value because their affiliates incur fees to
present these programs. Finally, they stated that the questioned amount is hardly
unrealistic when compared with NPR’s fee schedule. However, we cannot accept
intrinsic value estimates that are not reflected in RB’s financial records.

       Recommendations:

1) We recommend that CPB management :

   a) recover $285,760 in questioned CPB funds; and

   b) provide additional guidance in future CPB grant agreements on record
      keeping and documentation requirements to ensure RB can support direct,
      indirect, and allocated costs claimed.

       Radio Bilingüe Response

RB disagreed with recommendation 1a, saying they conducted a detailed and rigorous
examination of its accounting records associated with all of the subject production
grants. To aid in its examination, RB brought in an independent public accounting (IPA)
firm, who specializes in not-for-profit organizations.

Regarding indirect costs, the IPA firm said that a retrospective “true-up” of indirect costs
rates (and fringe benefits) based on actual expenditures was necessary. They
developed an alternative allocation based on RB’s audited financial statements and
additional financial information provided by RB. Their results differed in several
respects with the OIG’s report that are further detailed in its letter attached to RB’s
response in Exhibit P. Specifically, the IPA raised questions regarding the OIG’s
allocation basis and what functional costs should have been included in the indirect cost
pool to determine a “true-up” of the indirect cost rates for the years audited.

Regarding direct salary charges, RB asserted it had methods in place to produce the
information necessary to support its allocation of staff time to the CPB projects. RB also
stated that it conducted a retrospective study to verify the accuracy and reasonableness
of its original allocation methods. They stated the IPA’s analysis confirmed that RB’s
methods were acceptable under generally accepted accounting principles and included

                                              9
adequate safeguards to assure that wage allocations did not result in an over-statement
or duplication of personnel charges across multiple projects. Further, the IPA reviewed
the OIG’s allocations and concluded that the OIG’s approach was susceptible to
inequities as discussed further in its letter included in Exhibit P.

The IPA’s review concluded that expenses were overstated by $46,809. They also
noted that RB incurred an additional $60,724 in indirect expenses associated with the
Los Angeles Public Media Phase II grant. They said that this amount was not included
in the project expenses reported to CPB because it exceeded the budgeted line item for
indirect expenses for the project. Further, they said inclusion of these additional costs
would still leave the total costs of this project within the original project budget.

RB believes a retrospective “true-up” of expenses for the five CPB production grants
should be done. Combining the $46,809 overstated expenses with the $60,724 in
additional indirect costs would produce a net balance due to RB of $13,915.

RB’s response did not address recommendation 1b because it was directed to CPB
management.

      OIG Review and Comment

Based on RB’s response we consider recommendations 1a & b unresolved pending
CPB’s management decision.

We reviewed the IPA’s conclusions on the draft report’s questioned costs of $284,345
related to indirect costs, direct salaries, and fringe benefits. We also reviewed their
conclusion that only $46,809 in reported costs was questionable and that an additional
amount of $60,724 should be claimed in unreported indirect costs for the LA Program
Service Grant, Phase 2 project.

As noted, the IPA’s conclusions are based on a reconstructed “true-up” of indirect costs
and fringe benefits based on actual expenditures. However, to accept any of the RB
proposed reconstructed costs would require CPB officials to agree to modify the existing
grant agreement terms for claiming fringe benefits for all the grant agreements and
indirect costs for the LA Program Service Grant, Phase 2 project. Since CPB will not
address these issues until a final audit report is issued, we have not accepted any of the
proposed reconstructed costs. However, we did adjust the fringe benefit costs
questioned in Exhibit L, limiting the amount questioned to the percentage rates specified
under each grant agreement.

Additionally, we analyzed the methodologies used by RB’s IPA and have the following
issues that CPB should consider if they decide to entertain accepting any of RB’s
methodologies for revising its reported costs.




                                           10
       Indirect Costs

The IPA’s analysis disagreed with the OIG’s exclusion of professional service fees from
RB’s total direct costs because the allocation base utilized in the approved CPB
budgets was total direct costs. The IPA also referenced federal guidelines (OMB
Circular A-122, Cost Principles for Non-Profit Organizations), which permits grantees to
include $25,000 per subcontract in the allocation base to recognize that an organization
incurs some indirect costs in connection with its use of subcontractors. Additionally, the
IPA analysis contends that certain functional categories (Grants Administration) as
reported in RB’s audited financial statements were incorrectly treated by the OIG as
direct program costs rather than as a component of Management and General costs;
thereby both understanding the indirect cost pool and overstating the indirect cost base.
Additionally, the IPA stated that RB staff discovered that certain Management and
General costs were misclassified as Grants and Underwriting in the functional schedule
of expenses included in the audited financial statements, thus further understating the
Management and General indirect cost pool.

Regarding the IPA’s assessment that professional service fees should be included in
the allocation base, we believe including such costs unreasonably increased the
allocation base and the amount RB claimed as indirect costs. Professional service fees
did not receive the same level of benefits from RB’s indirect cost pool of activities as did
RB’s internal activities. While the IPA’s presentation discussed claiming $25,000 of
each subcontractor’s costs in the allocation base, we could accept such a methodology
if RB had claimed its indirect cost claims based on a federal approved indirect cost rate.

Regarding the inclusion of the Grants Administration functional expenses as part of the
Management and General functional costs, we disagree. Both LA projects had direct
costs associated with either grant writing or grant management. Both categories were
included in the Grants Administration functional expenses per the IPA’s discussions with
RB management officials. It is general practice that costs may not be allocated to a
project as an indirect cost if such costs are also assigned to a project as a direct cost.

Finally, RB provided revised general ledger summary information related to the
misclassification of Management and General functional expenses to the Grants and
Underwriting category. While these adjustments might be correct, we relied on the
audited financial statement schedule of functional expenses in presenting our draft
finding. We could not verify these revised figures to the adjusted trial balances we had
previously received from RB during our fieldwork.

       Direct Salaries

The IPA’s analysis contends that CPB’s grant terms did not specifically require the
grantee to maintain written, contemporaneous time and effort reports of the type the
OIG requested. While they acknowledge that maintaining written, contemporaneous
time and effort reports is generally regarded as a “best practice” for supporting time
allocations, they said all that is really required is that they have a method in place for

                                             11
evaluating the reasonableness of salary and related fringe allocations on an after-the
fact basis. After we completed our on-site review, RB represented that it based its
salary allocations on how employees were expected and budgeted,2 to spend their time,
with periodic reviews by project managers to ensure staff time spent on projects was in
compliance with grant budgets. Further, RB management have now represented that
such analysis took place during the course of each project, although this analysis was
not documented.

Additionally, RB reconstructed the executive director’s time spent on the LA Program
Service Grant, Phase 2 project for the periods June – September 2009 and June –
November 2010, as well as, other production officials time for selected months (August
2008, October 2008, November 2008, September 2009, January 2010, and March
2010).

Finally, the IPA’s analysis also took exception to the OIG’s allocations of direct wages
based on revenues received contending that the OIG methodology is no more equitable
than the method actually used by RB.

Regarding RB’s claims that it allocated direct salaries based on scheduled assignments
and project managers’ conducted after-the-fact reviews that staff worked on assigned
projects, we remain skeptical to what extent these reviews were conducted because
they were not documented. When RB initially responded to this issue in November
2011 they made no reference to project managers conducting post reviews of staff work
assignments. Specifically, RB’s written response stated, “Radio Bilingüe generates a
monthly labor distribution schedule that demonstrates the revenue source(s) for paying
all or part of each staff members’ pay during the period, based on each person’s work
assignments…. Staff was not assigned to revenue allocations unless they were
assigned to the work contracted.”

We disagree with the IPA’s interpretation of CPB record requirements that the grantee
does not need to maintain written, contemporaneous records of time charges under the
grant agreement. CPB’s agreements require the grantee to keep sufficient records to
verify all direct costs, overhead, and administrative allocations to permit an effective
audit. We believe this requires project time recordkeeping that can be verified against
project manager’s certifications and not merely be supported by a work assignment
schedule.

Regarding the Executive Director’s reconstructed time charges for the LA Program
Service Grant, Phase 2 project, RB reported the Executive Director worked 382 of 693
available time hours during 2009 (55 percent of available hours or 15 percent over the
approved-reimbursement rate of 40 percent). During 2010 RB reported that the

2
 The IPA reviewed three months of payroll allocations (October – December 2009) based on scheduled
work assignments. The October 2009 report showed that 11 of 22 employees who worked on CPB
projects also worked on other projects or unrestricted funded activities. RB had previously provided us
with a similar allocation for January 2009; however, we were not advised that the work assignments were
subsequently reviewed by RB project managers to verify their accuracy.

                                                  12
Executive Director worked 749 of 1,040 available hours on this project (12 percent over
the approved-reimbursement rate of 60 percent).

As CPB officials evaluate the merit of the reconstructed hours presented by RB, the
following observations are presented for consideration. Our review of the Executive
Director’s reconstructed hours for two of the months questioned identified the following:

   •   RB charged approximately 90 hours of the Executive Director’s time to the LA
       project in October 2010 while his reconstructed time records for the month
       identified that he spent only 45 hours on LA activities on 4 different days (17
       hours, 1 hour, 11 hours, and 16 hours for those 4 days); and
   •   RB charged approximately 308 hours of the Executive Director’s time to the LA
       project in November 2010 while his reconstructed time records identified that
       only 59.5 hours were spent on the LA activities on 4 different days (12.5 hours,
       11 hours, 18 hours, and 18 hours).

Additionally, our review of the Executive Director’s reconstructed time records noted:

   •   in FY 2009, 116 hours were claimed for time that exceeded an 8-hour workday or
       were incurred over a weekend;
   •   in FY 2010, 247 hours were claimed for time that exceeded an 8-hour workday or
       were incurred over a weekend; and
   •   23 days claimed at least 16 hours were spent on CPB activities.

While these reconstructed hours provide more accountability than the scheduled work
assignments, they also contained inconsistencies between scheduled and the actual
hours reconstructed. This information also provides insight on how that time was
actually spent (e.g., travel time, dinner meetings, conferences, receptions, etc.).
Additionally, questions can be asked about the level of productivity that is actually
received for hours worked beyond the normal 8-hour workday.

Regarding the IPA’s concerns about our methodology for questioning direct salaries;
because we could not attest to the accuracy of the work assignment schedules we
developed an alternative methodology that could be consistently applied allocating
salaries based on revenues across all production activities. Further, we only questioned
monthly direct salary charges in excess of CPB’s proportionate investment in the
audited CPB production projects, per Exhibits M and N.

       Fringe Benefits

The IPA’s analyses of fringe benefits agreed with the OIG’s rates for FY 2008-2009, but
stated that the rates used for FY 2010-2011 were incorrect. They also calculated
separate rates for the LA Program Service Grant, Phase 2 project and for all the other
RB projects. Based on their analysis we realized that we had inadvertently questioned
fringe benefit costs on Exhibit L based on actual fringe benefits rates versus the grant
term rates. Further, we identified that our calculation of the FY 2010-2011 fringe benefit

                                            13
rates did not capture all of the LA Program Service Grant, Phase 2 fringe benefit costs.
As a result, we corrected Exhibit L to question fringe benefits based on the grant
agreement budgeted rates, which resulted in a revised questioned cost total of
$118,092 for direct salaries and fringe benefits.


Non-Compliant Non-Federal Financial Support

Our examination of NFFS found that RB improperly claimed $28,150 in revenues
received from public broadcasting entities as NFFS on its Radio FY 2009 AFR.
Discussion with RB officials indicated that an oversight on their part caused the over-
reported NFFS. This condition resulted in CPB making $1,827 in excess CSG
payments to RB during FY 2011. We classified this amount as funds put to better use
for reporting purposes, because these funds could have been distributed to other public
broadcasting entities.

                             Calculation of CSG Overpayment

                                Explanation                  Overpayment

              Revenues from Public Broadcasters                $28,150
              CPB’s Incentive Rate of Return for Radio         .064888
                            Total Overpaid CSG                  $1,827

RB records showed that they claimed $19,150 as NFFS which they received as their
share of a CPB “Mortgage Crisis” grant that was distributed to public broadcasters in
California. They also claimed as NFFS $9,000 received from public television station
KQED as a sub-grantee recipient of a two-year “Health Dialogues” grant award from
The California Endowment.

Chapter 3 of CPB’s Financial Reporting Guidelines provides that revenue received from
public broadcasting entities including CPB must be excluded from NFFS. This resulted
in RB receiving an increased FY 2011 CSG award by $1,827.

RB agreed that the $19,150 was an ineligible claim but questioned whether the $9,000
claim that originated from The California Endowment who provided a grant to public
broadcaster KQED and then subcontracted with RB was really ineligible. However, we
believe that once The California Endowment granted the funds to the public
broadcaster; those funds became public broadcasting funds regardless of the original
source and thus were ineligible.

   Recommendation

2) We recommend that CPB require RB to take the following actions:

   a) Submit a revised FY 2009 Radio AFR, Schedule A, eliminating the unallowable
      direct revenues of $28,150.

                                               14
   b) Recover $1,827 in excess CGS payments made to RB based on the FY 2009
      reported NFFS.

      Radio Bilingüe Response

RB’s response stated that they simply erred in their accounting when they included,
as NFFS, a small payment it received as part of a CPB-funded partnership. In the
other case, they stated that they thought that the funds received from the California
Endowment retained their character as foundation support and were properly
classified as NFFS even though another public broadcaster acted as the fiscal
agent. However, they acknowledged that the other public broadcaster might have
claimed the endowment funds as its own NFFS and inappropriate double counting of
the support would occur if RB also claimed the support as NFFS; and they acceded
to the finding.

      OIG Review and Comment

We consider Recommendation 2 resolved but open pending CPB’s management
decision on whether to require RB is submit a revised FY 2009 AFR Schedule A
eliminating the unallowable direct revenues of $28,150, and whether they agree to
recover $1,827 in excess CGS payments made to RB based on the FY 2009 reported
NFFS.


Noncompliance With Communications Act Requirements

We found that RB was not materially in compliance with the statutory provisions of the
Act or the CPB requirements for; conducting open meetings of its Board of Directors
(Board) or its committees; establishing an active CAB; making all financial and EEO
reports available to the public; and establishing operating procedures explaining how it
complied with the five requirements of the Act. RB management annually certified its
compliance with these requirements when applying for its annual Community Service
Grant. However, RB had never established a formal CAB, as envisioned by the CPB
guidelines, since it became a CSG recipient in 1980. Discussions with RB management
indicated that they were not aware of the requirements of the Act or CPB guidelines.
However, as a result of our audit, RB took immediate action to bring themselves into
compliance with all the requirements of the Act. Our review found that RB complied
with the Act’s requirements for Equal Employment Opportunity (EEO) reporting and
securing donor list information.

      Open Meetings

RB was not in compliance with the provisions of the Act and CPB‘s minimum
requirements for open meetings. RB had no records of when or how often its Board
meetings were announced on air to the public. Also, meetings of the Audit, Finance,

                                           15
Evaluation, and Nominating Committees of the Board were not announced to the public.
On-air announcements were not made, on at least three consecutive days each
calendar quarter explaining RB’s open meeting policy and how the public could obtain
information regarding the dates, times, and locations of public meetings. In addition,
there was no documented record of when meetings were closed to the public as
required.

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)), prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The minimum compliance for “reasonable notice” as stated in CPB’s explanation of the
Act requires stations to “Give reasonable notice to the public of the fact, time and place
of an open meeting at least one week (7 days) in advance of the scheduled date . . . .”
CPB’s explanation of the Act also requires stations to provide three types of notice.

       1. Notice placed in the "Legal Notices" or the radio and television
          schedules section of a local newspaper in general circulation in the
          station's coverage area; or, notice is available through a recorded
          announcement that is accessible on the station's phone system; or,
          notice is available through an announcement that is accessible on
          the station's web page.

       2. Notice communicated by letter, e-mail, fax, phone, or in person to
          any individuals who have specifically requested that they be notified.

       3. On-air announcements on at least three consecutive days once
          during each calendar quarter that explain the station's open meeting
          policy and provides information about how the public can obtain
          information regarding specific dates, times, and locations.

CPB’s explanation of the Act requirements for open meetings also specifies that, if a
meeting is closed in accordance with exceptions recognized by the Act, the station must
make a written statement containing the reasons for closing the meeting and make that
information available to the public within a reasonable time after the closed meeting
date. This notice should be distributed in the same manner as announcements for open
meetings. This same reference in the Act prohibits requiring the public to register their
name or provide any other information, except as would be needed to maintain safety.

We were told that RB has an active Board. Management stated that meetings of the
Board were announced over the air and that printed announcements were posted on
the doors of the various radio station offices. However, there are no records of when or
how often this information was posted or announced on air.



                                             16
The lack of compliance with the specific requirements of the Act and CPB guidelines for
providing reasonable notice to the public of the fact, time, and place of board and committee
meetings deprived the public of the required information envisioned by the Act.

In response to our preliminary observations, RB told us that while they did not believe that
they violated CPB’s open meeting requirements; however, they acknowledged that
documentation of its compliance could be improved. We do not agree that they were in
compliance. RB’s lack of awareness of specific open meeting requirements coupled with the
lack of documentation of its compliance supports our conclusions.

       Open Records

RB was not in complete compliance with the open financial records provision of the Act
and CPB’s minimum compliance requirements at the time of our audit fieldwork
because they did not maintain a copy of the station’s AFR submitted to CPB, other
financial reports submitted to CPB for the production grants, or the EEO statistical
report submitted to CPB in its files available for public inspection.

Section 396(k)(5) of the Act provides that funds may not be distributed to any public
telecommunications entity that does not maintain for public examination its AFR filed
with CPB, any audit reports or financial statements on the financial condition of the
station, or other information regarding finances, submitted to CPB pursuant to
subsection (l)(3)(B). CPB addresses this requirement in its minimum compliance
requirements by stating that the following documents must be made available for public
inspection:

       a) Annual Financial Report (AFR) filed with CPB;
       b) Audited financial statements, and
       c) Information regarding finances submitted to CPB related to any
          funding agreement with CPB that requires a financial report.

Section 396(k) (11) of the Act also established that funds may not be distributed to any
public broadcast station, unless the annual EEO statistical report that is submitted to
CPB is available to the public at the central office where more than five full-time
employees are assigned to work.

We were told that the AFRs and AFSs were always available to the public but they were
not in a file. Financial Statements were available on the RB web site. We were also
told that the receptionist was instructed to refer the public seeking financial information
to the Director of Broadcasting. Station managers were not aware of the requirement to
also have available “other information regarding finances submitted to CPB related to
any funding agreement with CPB that requires a financial report.” They are now in the
process of bringing their records system into compliance. They also stated that they will
maintain a hard copy file of financial documents and EEO statistics in addition to the
copies of its AFR and FCC annual EEO report it maintains on its web site. They stated
that the file will be readily available to the public.

                                            17
RB filed the appropriate Station Activities Survey (SAS) report with CPB. However, it
did not have a copy of the EEO statistical portion of the SAS report available for public
inspection, as required. RB did have an FCC EEO file but the information in that file did
not comply with CPB guidelines.

      Community Advisory Board

Our examination found that RB had never established a Community Advisory Board
(CAB) since it had became a CSG recipient in 1980. However, in keeping with its
mission, RB routinely convened groups of listeners, advisory groups, and other
audiences to obtain feedback on issues and programs being aired or being considered
for airing. However, these actions did not comply with the statutory and CPB
requirements for CABs.

CPB guidance requires community licensees to establish a viable CAB pursuant to the
statutory requirements of Section 396(k) (8) of the Act. This section provides that funds may
not be distributed to a community public broadcast station unless it establishes a CAB that
meets at regular intervals and CAB members regularly attend the meetings. Further, CPB’s
minimum compliance requirements state that the CAB is to:

      •   review programming goals established by the station;
      •   review the services provided by the station;
      •   review significant policy decisions rendered by the station; and,
      •   advise the governing board whether the programming and other
          policies of the station meet specialized educational and cultural
          needs of the communities served by the station . . . .

CPB guidance also requires that to qualify as a meeting, the sessions of governing
bodies, including the CAB, must include the following elements:

      •   a quorum, for the purpose of taking action, must be in attendance;
      •   deliberations must take place; and
      •   the deliberations must . . . relate to public broadcasting.

The lack of a functioning CAB denied the public the opportunity to provide the specific
input to management and the governing board envisioned by the Act on how well the
station was accomplishing its public broadcasting mission. In response to our audit,
and to supplement their ongoing efforts, RB told us that they created a permanent CAB
which will meet periodically.

      Documented Procedures

RB had not developed documentation or written procedures that explain how it complied
with the open meeting, open financial records, CAB, EEO, or donor list and political
activities requirements of the Act. These procedures should specify in detail how the
station actually goes about complying with each of the five sections of the certifications

                                           18
made by grant recipients. These procedures are necessary to provide the public with
information they need to understand how the station complies with these
responsibilities.

CPB provides the following guidance in its certification requirements for developing
implementing instructions for the Act’s requirements.

        Each recipient of a CPB station grant . . . shall develop
        documentation . . . that will indicate, for example, the recognition of
        the provision by the relevant boards and committees, the procedure
        for open meetings, the method used to give reasonable notice to
        the public, examples of notices of open meetings . . . and other
        information indicating community response, if any, to open
        meetings.

This documentation shall be kept at a reasonable location by each station
and be made available to CPB, upon request, to determine the fact and
extent of compliance. Similar guidance also applies to the other four
requirements under the Communications Act.

These policies are essential to ensure compliance with the Act and provide the public
with information about station operations. For example, the lack of a written policy on
RB’s open meeting procedures hindered the ability of the public to obtain information
regarding the dates, times, and locations of future Board, CAB, and all other meetings.
Further, without written policies describing how the station complies with the open
financial records and EEO requirements, the public cannot readily determine the type of
records available for public inspection, the mechanisms for obtaining and reproducing
available records, or any limitations on access to specific records.

In response to our audit, RB told us that they adopted and implemented policies and
procedures to address the documentation requirements of the CPB guidelines which
they provided in response to our preliminary observations. The guidelines cover open
meeting of the Board of Directors, Open Records, and the Community Advisory Board.
RB did not provide policies and procedures to address EEO and donor requirements.

   Recommendations

3) We recommend that CPB require RB to fully comply with all requirements of the
   Communications Act and provide CPB documentation of its compliance over the
   next four calendar quarters. To comply adequately RB should:

   a) Make on-air announcements for at least three consecutive days once each
      calendar quarter that explain the station’s open meeting policy, and provide
      information how the public can obtain information regarding specific dates, times,
      and locations of public meetings.



                                            19
   b) Provide seven days advance notice of all public meetings of the Board,
      committees of the Board, and the CAB.

   c) Ensure that when a meeting is closed in accordance with exceptions recognized
      by the Act, RB makes a written statement containing the reasons for closing the
      meeting available to the public within a reasonable time after the closed meeting.
      This notice should be distributed in the same manner as announcements for
      open meetings.

   d) Establish an operating CAB and provide CPB with copies of its by-laws, meeting
      agendas, and minutes to provide additional information on the operations of the
      CAB.

   e) Establish written implementing policies that explain how the station will comply
      with open meeting, open financial records, CAB, EEO, and donor list
      requirements of the Act, and provide this documentation to CPB.

4) We recommend that CPB consider sanctioning the RB for its long period of non-
   compliance with the CAB requirements, without officially notifying CPB that it did not
   have an operating CAB. Sanctions could include a one-time financial penalty to a
   future grant award for not reporting its non-compliance.

      Radio Bilingüe Response

RB’s response stated that they agree with most, though not all, of our findings and
that they have taken direct, specific, and immediate measures to assure full
compliance with every provision of the CPB requirements and to remedy every issue
identified in the report. They included references to specific actions that they have
implemented to address shortcomings in procedures and processes for compliance
with open meetings, CAB, open records and documentation of required procedures.
This included identifying procedures to increase transparency and documentation of
their actions to comply with all CPB requirements.

RB also requested that we withdraw our recommendation that CPB consider
sanctioning RB, with possibly a financial penalty, for its long period of non-
compliance with the CAB requirements, without officially notifying CPB that it did not
have an operating CAB. RB stated that admittedly, they did not comply in all
respects with CPB requirements; however, they noted that the OIG report did not
indicate that RB’s efforts to understand and serve its audience were ineffective.

      OIG Review and Comment

We consider Recommendation 3 resolved but open pending CPB’s management
decision on whether to accept RB’s corrective actions to comply with all requirements of
the Act.



                                           20
With respect to Recommendation 4; it remains unresolved and open pending CPB’s
management decision on whether to financially sanction RB for its long-term lack of
compliance with CAB requirements. As was noted in our report and in RB’s response,
RB convened ad hoc groups when they decided it was necessary to seek the public’s
opinion on matters under consideration. However, as informative as this process may
have been it did not substitute for a well organized panel charged with the specific
responsibilities envisioned for the CAB. These responsibilities included providing the
Board of Directors with regular assessments about the activities and programs of the
radio stations under the RB umbrella. This formal structure and the ongoing
responsibilities are essential to the success of a CAB.




                                          21
                                                                                              Exhibit A
                                            CPB Payments to RB

 Date                     Grant                 FY 2008    FY 2009      FY 2010      Oct-Nov 2011     Total
           Digital:
10/15/07   Contract #10062                      $112,500                                             $112,500
11/15/07   Contract #8479                        $13,872                                              $13,872
 3/5/08    Contract #10062                      $112,500                                             $112,500
5/30/08    Contract #9663                        $18,912                                              $18,912
9/30//08   Contract #10062                       $50,500                                              $50,500
                         Sub-Total              $308,284          $0           $0              $0    $308,284
           Production:
11/6/07    Elections                            $135,000                                             $135,000
7/31/08    Elections                            $135,000                                             $135,000
2/17/09    Elections                                        $135,000                                 $135,000
5/15/09    Elections                                         $45,000                                  $45,000
 8/1/08    Noticiero Latino                     $123,000                                             $123,000
10/26/09   Noticiero Latino                                              $234,500                    $234,500
 6/8/10    Noticiero Latino                                               $92,500                     $92,500
10/1/08    LA Latino Program Service, Phase 1               $100,000                                 $100,000
2/17/09    LA Latino Program Service, Phase 1               $100,000                                 $100,000
 6/3/09    LA Latino Program Service, Phase 1               $100,000                                 $100,000
 8/4/10    LA Latino Program Service, Phase 1                             $50,262                     $50,262
6/26/09    LA Latino Program Service, Phase 2               $600,000                                 $600,000
3/11/10    LA Latino Program Service, Phase 2                            $800,000                    $800,000
 8/5/10    LA Latino Program Service, Phase 2                            $400,000                    $400,000
10/1/09    The Economic Crisis                                           $150,000                    $150,000
10/19/10   The Economic Crisis                                                          $150,000     $150,000
11/22/10   The Economic Crisis                                                          $100,000     $100,000
                         Sub-Total              $393,000   $1,080,000   $1,727,262      $250,000    $3,450,262
           Community Service Grant:
12/5/07    FY 2008 Radio CSG Unrestricted        $86,095                                              $86,095
12/5/07    FY 2008 Radio CSG Restricted          $33,221                                              $33,221
 4/7/08    FY 2008 Radio CSG Unrestricted        $83,581                                              $83,581
 4/7/08    FY 2008 Radio CSG Restricted          $32,247                                              $32,247
1/13/09    FY 2009 Radio CSG Unrestricted                    $85,184                                  $85,184
1/13/09    FY 2009 Radio CSG Restricted                      $30,101                                  $30,101
 3/5/09    FY 2009 Radio CSG Unrestricted                    $85,184                                  $85,184
 3/5/09    FY 2009 Radio CSG Restricted                      $30,101                                  $30,101
1/14/10    FY 2010 Radio CSG Unrestricted                                 $80,579                     $80,579
1/14/10    FY 2010 Radio CSG Restricted                                   $28,770                     $28,770
 3/8/10    FY 2010 Radio CSG Unrestricted                                 $80,579                     $80,579
 3/8/10    FY 2010 Radio CSG Restricted                                   $28,769                     $28,769
                         Sub-Total              $235,144    $230,570     $218,697              $0    $684,411
           Other:
1/13/10    Fiscal Stabilization Grant                                     $21,654                     $21,654
                              Total             $936,428   $1,310,570   $1,967,613      $250,000    $4,464,611

                                                     22
                                                                                                    Exhibit B
                                               Annual Financial Report

Line                                        Description                                 2009          2010


        Schedule A, Source of Income:
 1      Amounts provided directly by federal government                                 $179,404      $453,154
 2      Amounts provided by Public Broadcasting Entities                               $1,163,070    $2,638,786
2.A.    CPB-CSG                                                                         $170,368      $138,641
2.B.    CPB-Digital Project Grants                                                             $0            $0
2.C.    CPB-Restricted CSG                                                               $60,202       $80,057
2.D.    CPB-TV Interconnection grants                                                          $0            $0
2.E.    CPB-all other funds                                                             $932,500     $2,420,088
2.F.    PBS                                                                                    $0            $0
 2G     NPR                                                                                    $0            $0
 2H     Public broadcasting stations - all payments                                            $0            $0
 2I     Other PBE funds (specify)                                                              $0            $0
 3      Local boards & departments of education or other local government sources       $121,050       $35,590
 4      State boards & departments of education or other state government sources              $0     $122,876
 5      State colleges and universities                                                        $0            $0
 6      Other state-supported colleges and universities                                  $21,300       $26,800
 7      Private colleges and universities                                                      $0            $0
 8      Foundation and nonprofit associations                                          $1,491,603    $1,194,854
 8a      How much of the revenue was received as underwriting? (2009 - $3,600)
 9      Business and Industry                                                            $95,525       $34,483
 9a.     How much of the revenue was received as underwriting? (2009 - $28,525)
 10     Memberships and subscriptions                                                          $0            $0
 11     Revenue from Friends groups less any revenue included on line 10.                $28,046       $32,743
 12     Subsidiaries and other activities unrelated to public broadcasting                     $0            $0
 13     Auction revenue                                                                        $0            $0
14.A.   Gross special fundraising activities                                            $168,674             $0
14.B    Direct special fundraising expenses                                             $306,883             $0
 15     Passive Income                                                                    $1,759          $253
15.A.   Interest and dividends                                                            $1,759          $253
 20     Other Direct Revenue                                                              $7,486        $4,526
 21     Total Revenue                                                                  $3,277,917    $4,544,065


         Adjustments to Revenue
 22     Federal revenue                                                                 $179,404      $453,154
 23     Public broadcasting revenue                                                    $1,163,070    $2,638,786
 26     Other automatic subtractions from total revenue                                 $168,674             $0
26B     Special fundraising event expenses-limited to the lesser of lines 14a or 14b    $168,674             $0
 27.    Total Direct Nonfederal Financial Support                                      $1,766,769    $1,452,125




                                                             23
                                                                                Exhibit B-1
                                             Annual Financial Report

Line                                         Description                2009         2010
       Schedule C
 1                                                                                    $60,315
       Professional Services                                             $14,650
 2     General Operational Services                                       $3,300       $3,300
 3     Other Services                                                          $0           $0
 4     Total in-kind contributions eligible as NFFS                      $17,950      $63,615
 5     In-kind contributions ineligible as NFFS                         $254,640     $254,640
 6     Total in-kind contributions                                      $356,830     $402,495


       Schedule E, Expenses:
        Program Services
 1     Programming and production                                      $2,004,917   $3,261,507
 2     Broadcasting and engineering                                     $565,277     $662,514
 3     Program information and promotion                                 $59,182      $58,560
        Support Services
 4                                                                                   $240,002
       Management and general                                           $212,726
 5                                                                                    $25,627
       Fund raising and membership development                          $306,883
 6     Underwriting and grant solicitation                              $279,612     $239,638
 7     Depreciation and amortization                                           $0           $0
 8     Total Expenses                                                  $3,428,597   $4,487,848


       Investment in Capital Assets
 9     Total capital assets purchased or donated                        $176,688     $170,153
       Total expenses & investment in capital assets                   $3,605,285   $4,658,001


       Additional Information
 11    Total expenses (direct only)                                    $3,071,767   $4,085,353
 12    Total expenses (indirect and in-kind)                            $356,830     $402,495
 13    Investment in capital assets (direct only)                       $176,688     $170,153
 14    Investment in capital assets (indirect and in-kind)                     $0           $0




 1     Data from AFR
1.a.   Schedule A, Line 21                                             $3,277,917   $4,544,065
1.b.   Schedule B, Line 5                                                      $0           $0
1.c.   Schedule C, line 6                                               $356,830     $402,495
1.d.   Schedule D, Line 8                                                      $0           $0
1.e.   Total from AFR                                                  $3,634,747   $4,946,560




                                                             24
                                                                             Exhibit C
                 Summary of Non-Federal Financial Support
                             Reported to CPB
                    Certifications by Head of Grantee


              AFR Schedule                   FY 2009      FY 2010      Total


Direct Revenue (Schedule A)                  $1,766,769   $1,452,125   $3,218,894

Indirect Administrative Support
     (Schedule B)                               0            0           0

In-Kind Contributions (Schedules C&D)
    a. Services and Other Assets
        (Schedule C)                            17,950       63,615       81,565
    b. Property and equipment
        (Schedule D)                            0            0           0

               TOTAL NFFS                    $1,784,719   $1,515,740   $3,300,459




                                        25
                                                                                   Exhibit D
                                Los Angeles Latino Program Service
                            Research & Development Phase 1, Final Report
                                   October 1, 2008 - June 1, 2009

                            Budget Category                Budget      Actual      Variance

Revenue:
CPB Grant                                                   $350,262    $350,262          $0


                           Total Project Funds             $350,262    $350,262           $0


Expenses:
Radio Bilingüe Personnel                                    $29,101     $27,721      $1,380
 Fringe Benefits @ 20%                                        $5,820      $5,505        $315
Total Radio Bilingüe Personnel and Fringe Benefits Costs    $34,921     $33,226      $1,695


Direct Expenses:
Consultants
 Project Management Firm                                    $187,839    $187,401        $438
 Partnership Facilitator                                     $47,817     $51,539     ($3,722)
 Communications Specialist(s)                                $25,768     $25,768          $0
 Legal Counsel                                                 $885        $885           $0
 Media Trainer                                               $11,500     $11,312        $188
Total Direct Expenses                                      $273,809    $276,905     ($3,096)


Operating Expenses:
 Travel                                                      $11,399     $11,535      ($136)
 Hosting meeting Expense                                      $7,219     $10,287     ($3,068)
Total Operating Expenses                                    $18,618     $21,822     ($3,204)


Subtotal Project Expenses                                  $327,348    $331,953     ($4,605)
 Indirect @ 7%                                               $22,914     $22,914          $0
                           Total Project Costs             $350,262    $354,667     ($4,605)




                                                 26
                                                                                       Exhibit E
                                    LA Program Service Content Development
                                        and Testing Phase 2, Final Report
                                        June 1, 2009 - November 30, 2010

                              Budget Category                   Budget        Actual        Variance
Revenue:
 CPB Grant                                                       $2,451,419    $2,451,419              $0
                            Total Project Funds                 $2,451,419    $2,451,419               $0


Expenses:
Administration
Radio Bilingüe Personnel                                         $131,470      $133,636         $2,166
 Fringe Benefits @ 20%                                             $26,294       $21,361       ($4,933)
    Total Radio Bilingüe Personnel and Fringe Benefits Costs     $157,764      $154,997        ($2,767)


Los Angeles Personnel                                            $288,442      $288,521          ($79)
 Fringe Benefits (Excluding Project Director) @ 20%                $19,409       $15,525         $3,884
    Total Los Angeles Personnel and Fringe Benefits Cost         $307,851      $304,046         $3,805
      Administration Subtotal                                    $465,615      $459,043        ($6,572)


Content Production Personnel                                     $492,035      $477,937       $14,098
 Fringe Benefits @ 20%                                             $97,807       $76,201        $21,606
      Content Production Subtotal                                $589,842      $554,138        $35,704


Research
 Research Firm                                                    $315,650      $314,790          $860
 Audience Discussion Groups                                         $1,760        $1,760               $0
      Research Subtotal                                          $317,410      $316,550           $860


Facilities/Infrastructure
 Space Rental                                                      $50,601       $52,833       ($2,232)
 Remote Studios                                                     $1,917        $1,924           ($7)
 Infrastructure Advisor                                            $37,103       $36,541          $562
 Laptops (17)                                                      $44,436       $44,665         ($229)
 Printers (7)                                                       $3,000        $3,205         ($205)
 Web Server and Software                                           $12,075        $8,707         $3,368
 Public interactive Content Management                             $12,363       $10,148         $2,215
 Bright Cove website video player                                   $3,500        $5,500       ($2,000)
 ENCO Server                                                       $17,634       $17,351          $283
 Audio/Video Production Equipment                                  $56,999       $56,068          $931
      Facilities/Infrastructure Subtotal                         $239,628      $236,942         $2,686




                                                       27
                                                                                          Exhibit E-1
                                      LA Program Service Content Development
                                          and Testing Phase 2, Final Report
                                          June 1, 2009 - November 30, 2010

                              Budget Category                           Budget       Actual       Variance
Operating
 Office & General Supplies                                                  $7,005       $7,592        ($587)
 Phone                                                                      $7,826       $7,843         ($17)
 Postage/Shipping /Printing                                                 $3,761       $3,938        ($177)
 Meetings                                                                  $13,749      $14,081        ($332)
 Travel                                                                   $114,088     $114,320        ($232)
 Subscriptions/Music/Dues                                                   $5,601       $5,981        ($380)
 Payroll Fees                                                               $3,815       $3,803          $12
      Operating Subtotal                                                 $155,845     $157,556       ($1,711)


Development and Marketing – Contracted
 Development Specialist(s)                                                $125,200     $125,200              $0
 Foundation Researcher/Grant Writer(s)                                     $25,200      $21,740        $3,460
 Marketing/Branding/Communications Specialist(s)                           $44,000      $44,000              $0
 Event(s) and in-house Marketing for web Launch                            $45,000      $44,430         $570
 Promotional Materials                                                     $12,000       $9,550        $2,450
       Development and Marketing Subtotal                                $251,400     $244,920        $6,480


Professional Fees
 Search professional(s)                                                    $43,046      $48,012      ($4,948)
 Partnership Facilitator                                                   $55,270      $43,089       $12,181
 Radio Bilingüe Organizational Development                                 $40,800      $38,211        $2,589
 Business Plan Creation/Management Advisement                              $24,500      $24,500              $0
 Operating Structure Development/501c3 Development                         $40,000      $40,000              $0
 Broadcast Option Scan                                                      $9,000       $9,000              $0
 National Program Partnership Option Negotiator                            $52,000      $52,000              $0
 Attorney fees                                                             $15,611      $15,560          $51
       Professional Fees Subtotal                                        $280,245     $270,372        $9,873
Contingency (station acquisition negotiations and business modeling)       $20,000      $20,000              $0
Indirect @ 6.6% of Project (excluding RB staff and contingency)           $131,318     $131,318              $0
       Subtotal Without Contingency                                     $2,431,303   $2,370,839      $60,464


                  Total Project Costs with Contingency                  $2,451,303   $2,390,839      $60,464




                                                                   28
                                                                                  Exhibit F
                        2008 Election Coverage Final Report
                        November 1, 2007 - January 31, 2009

               Budget Category               Budget      Actual        Variance
Revenue
 CPB                                          $450,000    $450,000                0
 Grantee Guarantee In-kind                     $28,000     $28,000                0
Total Revenue                                $478,000    $478,000                 0


Expenses
Personnel Salaries                           $178,894    $178,893              $1
 Fringe Benefits @ 20%                         $39,805     $38,056        ($1,749)
       Total Personnel Expenses              $214,672    $216,949        ($1,749)


Contract Personnel
 Web News Editor Consultant                    $26,100     $36,269       ($10,169)
 Web Master Consultant                          $9,900            $0       $9,900
 Reporter                                       $3,000      $3,500         ($500)
 Interpreter                                     $820         $820             $0
 Free Lance Module Reporters                   $12,000     $12,000             $0
       Total Contractor Expenses              $51,820     $52,589          ($769)


Marketing
 Promotional Materials                         $20,000     $17,531         $2,469
 Honorariums for Host                           $8,000      $7,000         $1,000
 Lodging and Per Diem                          $26,958     $27,552         ($594)
       Total Marketing Expenses               $54,958     $52,083         $2,875


Operating Expenses
 Facilities-news room & offices                 $6,000      $6,000             $0
 Equipment Maintenance &Repairs                $11,000     $10,390           $610
 Laptop Computer( Dell)                         $1,703      $1,703             $0
 Production Supplies-CDs, minidisks             $2,267      $2,252            $15
 Convention Transmission                        $9,579      $9,114           $465
       Total Operating Expenses               $30,550     $29,459         $1,091


Other Operating Expenses
 Office Supplies                                $6,000      $6,000             $0
 Telephone services ($500./Mo)                 $16,500     $17,330         ($830)
 Utilities ($125./Mo)                           $8,000      $8,088           ($88)
       Total Other Operating Expenses         $30,500     $31,418          ($918)




                                        29
                                                                      Exhibit F-1
                    2008 Election Coverage Final Report
                    November 1, 2007 - January 31, 2009

           Budget Category            Budget        Actual      Variance
 Indirect Expenses @ 15%                  $67,500     $67,500              $0
      Subtotal Project Expenses       $450,000       $450,000          $0


In-kind Contribution
 Facilities-news room & offices            $9,000      $9,000              $0
 Studio Time Production                   $15,000     $15,000              $0
 Satellite and other Distribution          $4,000      $4,000              $0
Total Grantee In-kind Contribution        $28,000     $28,000          $0


       Total Project Expenses         $478,000      $478,000           $0




                                     30
                                                                               Exhibit G
                           Noticiero Latino Final Report
                         July 1, 2008 - November 30, 2010

           Budget Category              Budget         Actual       Variance
Revenue

 CPB                                        $500,000     $500,000              $0
 Grantee Guarantee In-kind                   $30,000      $30,000              $0
Total Projected Funds                    $530,000       $530,000               $0


Expenses:
Personnel Salaries                       $190,314       $190,314               $0
 Fringe Benefits @ 20%                      $40,732      $39,391        $1,341
       Total Personnel Expenses          $231,046       $229,705        $1,341


Contract Personnel
 Free Lance Reporters                        $97,577      $98,113        ($536)
 Marketing Web Consultant                    $25,138      $24,888         $250
 Production Consultant                        $6,725       $6,912        ($187)
       Total Contractor Expenses         $129,440       $129,913        ($473)


Marketing
 Promotional Expenses                        $33,292      $34,282        ($990)
 Travel and Conferences                      $21,805      $22,883      ($1,078)
     Total Marketing Expenses               $55,097      $57,165       ($2,068)


Other Operating Expenses
 Supplies (125.00/Mo)                         $3,150       $3,000         $150
 Telephone services ($500./Mo)               $12,900      $12,000         $900
 Utilities ($125./Mo)                         $3,150       $3,000         $150
Total Other Operating Expenses              $19,200      $18,000        $1,200
 Indirect Expenses @ 15%                     $65,217      $65,217              $0
Total Project Expenses                   $500,000       $500,000               $0


Grantee In-Kinds
Facilities-news room & offices               $18,000      $18,000              $0
Equipment Maintenance &Repairs                $6,000       $6,000              $0
Satellite and other Distribution              $6,000       $6,000              $0
       Total Grantee In-kinds               $30,000      $30,000               $0
Total Expenses                           $530,000       $530,000               $0




                                       31
                                                                           Exhibit H
                        The Economic Crisis and Latinos:
                    Access to Unemployment Help Final Report
                      September 1, 2009 - November 30, 2010

                 Budget Category              Budget       Actual      Variance
Revenue
 CPB Grant                                      $475,000    $400,000     $75,0000
                Total Project Funds            $475,000     $400,000     $75,000


Expenses:
Personnel Salaries                             $271,883     $271,883           $0
 Fringe Benefits @ 23%                           $63,182     $63,937        ($755)
       Total Personnel Expenses                $335,065     $335,820       ($755)


Contract Personnel
 Reporters & Contributors                        $20,426     $20,339          $87
 Webmaster                                       $15,324     $14,556         $768
 Web Editor                                      $21,400     $21,230         $170
       Total Contractor Expenses                $57,150      $56,125       $1,025


Marketing
 Promotional Expenses                             $6,210      $7,298      ($1,088)
 Travel and Conferences                           $6,335      $5,999         $336
       Total Marketing Expenses                 $12,545      $13,297       ($752)


Other Operating Expenses
 Equipment Repair                                 $7,650      $7,200         $450
 Production materials & Supplies                  $3,300      $3,300              $0
 Telephone/ Internet Services                    $13,050     $13,318        ($268)
 Utilities                                        $3,850      $3,550         $300
       Total Other Operating Expenses           $27,850      $27,368        $482


             Subtotal Project Expenses         $432,610     $432,610           $0
 Indirect Expenses @ 15%                         $42,390     $42,390              $0
              Total Project Expenses           $475,000    $475,000            $0




                                         32
                                                                                                                      Exhibit I
                                  Analysis of Indirect and In-kind Percentage Rates
                                                 Elec 11/07-
                  Cost Category                     1/09       Notic 7/08-11/10   LA 1 10/08-6/09   Econ 9/09-11/10   LA 2 6/09-11/10
Personnel:
Business Manager                                     20%             4%                5%                 4%               26%
Grants Admin                                         15%            10%                5%                 7%               26%
Exec Secretary                                       7%              8%                                   4%               26%
Grant Develop                                        5%                                                                    26%
Grant Develop                                                                                                              26%
Dir of Broadcasting *                                2%
Exec Dir                                             5%              7%                                   4%
Maintenance                                          4%
Pledge Drive Coordinator                             8%
Fringe Benefits                                      21%            21%                                  21%
KHDC Station Mgr*                                    9%
KHDC Producer *                                      9%
Engineering*                                         2%
Other Operating Expenses:
Legal & Accounting Fees                              7%              5%                6%                                  20%
Transmission & Studio Eng                            5%              5%                                                    20%
Grants & Funds Solicitation                                                                                                20.%
Consultants - Other                                                                                                        20%
Office Supplies/Consumables                                          5%                5%                 3%               20.%
Telephone/Communications                                                               7%                                  20%
Postage & Shipping                                                                     5.%                                 20%
Rent                                                 7%              8%                5%                10%              20.0%
Building & Grounds                                   5%              3%                5%                 4%               20%
Utilities                                                                              5.0%                                20%
Insurance                                            10%             7%                5%                 7%               20%
Equipment Repairs                                                    2%                5%                                  20%
Equipment Rental                                                                                                           20%
Depreciation                                                                                                               20%
Printing                                                                               5%                                  20%
Conference, Meetings & Seminars                      5%                                5%                                  20%
Travel                                                                                 5%                                  20%
Travel-Exec Dir                                                                                                            20%
Satellite (indirect & in-kind*)                   2% / 11%           9%                                  15%
Distribution                                                                                                               20%
News Subscription                                                                                                          20%
Advertising & Marketing                                                                                                    20%
Fund Raising Expense                                                                                                       20%
Membership & Dues                                    2%                                5%                                  20%
Misc                                                 15%                               5%                                  20%
Interest Expense                                                                                                           20%
Equipment (Purchase Fixed Assets)                                                                                          20%
 In-Kind rates are larger and reflected in Bold and Italics


                                                                   33
                                                                                                                                                                             Exhibit J
                                               Calculation of Indirect Rate Based on Functional Expenses

                           LA Public        Programming                                                  Grants &                                                       Mgt &           Indirect
        Expenses            Media              & Prod             Broadcast          Grant Admin        Underwriting         Fundraising         Total Direct          General            Rate


2008:
Operating Expenses                                $1,482,373            $335,911             $64,942           $343,851            $263,844          $2,490,921           $210,094
Professional Fees                                 ($173,928)                   $0                  $0          ($90,999)            ($3,075)         ($268,002)           ($11,233)
   Adjusted Total                      $0         $1,308,445            $335,911             $64,942           $252,852            $260,769          $2,222,919           $198,861             8.9%




2009:
Operating Expenses              $215,396          $1,705,281            $306,337             $59,182           $265,962            $306,883          $2,859,041           $212,726
Professional Fees              ($24,427)          ($420,603)             ($5,294)                  $0          ($39,410)                  $0         ($489,734)           ($13,206)
   Adjusted Total               $190,969          $1,284,678            $301,043             $59,182           $226,552            $306,883          $2,369,307           $199,520             8.4%




2010:
Operating Expenses            $1,727,984          $1,449,283            $344,259             $58,560           $239,638             $25,627          $3,845,351           $240,002
Professional Fees             ($637,136)          ($164,023)             ($7,271)             ($125)           ($10,933)                  $0         ($819,488)           ($26,604)
   Adjusted Total             $1,090,848          $1,285,260            $336,988             $58,435           $228,705             $25,627          $3,025,863           $213,398             7.1%



                     Methodology: We developed a simplified indirect cost rate by using the functional expense information presented in RB’s audited financial statements. We
                     calculated the rates by using the Management and general reported information as a pool of indirect costs to be distributed across the other functional categories.
                     We adjusted the direct costs by the professional fees presented in the functional expenses to eliminate professional fees to calculate an indirect rate for each fiscal
                     year. We calculated the rates for each year. We did not include in-kind expenses in total direct cost calculation because they were not subject to indirect costs
                     under the grant budgets.




                                                                                              34
                                                                                                                                         Exhibit K
                                                  Calculation of Questionable Indirect Costs

                                                                                                         LA Phase 2
                                                                                                                                               Total
      Budget Category         Election        Noticiero    LA Phase 1    Economic     Admin        LA Media      Content         Total       Questioned


Expenses:
Personnel Salaries             $178,893         $190,314       $27,721     $271,883    $133,636      $97,123      $477,939       $708,698
Fringe Benefits                 $38,056          $39,391        $5,505      $63,937     $21,361      $15,525          $76,201    $113,087
       Total Personnel         $216,949         $229,705       $33,226     $335,820    $154,997     $112,648      $554,140       $821,785


Contract Personnel              $52,589         $129,913     $276,905       $56,125           $0    $191,398      $585,162       $776,560
Marketing Contracted                     $0           $0           $0           $0            $0          $0      $190,940       $190,940
Marketing                       $52,083          $57,165           $0       $13,297           $0          $0          $53,980     $53,980
Operating                       $29,459               $0           $0           $0            $0          $0      $157,556       $157,556
Other Operating                 $31,418          $18,000       $21,822      $27,368           $0          $0           $1,760      $1,760
Facilities/Infrastructure                $0           $0                        $0            $0          $0      $236,942       $236,942
    Total Non-Personnel        $165,549         $205,078      $298,727      $96,790           $0    $191,398     $1,226,340     $1,417,738


   Total Direct Expenses       $382,498         $434,783      $331,953     $432,610    $154,997     $304,046     $1,780,480     $2,239,523

Adjustments:
Contracted Services            ($52,589)      ($129,913)    ($276,905)    ($56,125)           $0   ($191,398)    ($776,102)     ($967,500)
Admin Salaries & Benefits                $0           $0           $0           $0    ($154,997)          $0               $0   ($154,997)
    Adjusted Total Direct      $329,909         $304,870       $55,048     $376,485           $0    $112,648     $1,004,378     $1,117,026

Auditor Calculated Indirect
Rate                               8.9%             7.1%         8.4%         7.1%                                                   7.1%
  Allowable Indirect Costs      $29,362          $21,646        $4,624      $26,730                                               $79,309


Claimed Indirect Costs          $67,500          $65,217       $22,914      $42,390                                              $131,318


 Questioned Indirect Costs      $38,138          $43,571       $18,290      $15,660                                               $52,009       $167,668




                                                                           35
                                                                                           Exhibit L

  Schedule of Direct Salaries and Fringe Benefit Questioned Costs

                                                            "Economic          Total Questioned
            Description                CPB Projects*       Crisis" Project           Costs
FY 2008:
Questioned Direct Salaries                      $22,001                                  $22,001
Fringe Benefit Rate                                 20%
Questioned Fringe Benefits                       $4,400                  $0               $4,400


  Total FY 2008 Questioned Costs                $26,401                  $0              $26,401


FY 2009:
Questioned Direct Salaries                      $35,911              $3,310              $39,221
Fringe Benefit Rate                                 20%                23%
Questioned Fringe Benefits                       $7,182                $761               $7,944


  Total FY 2009 Questioned Costs                $43,093              $4,071              $47,165


FY 2010:
Questioned Direct Salaries                      $11,952             $10,249              $22,201
Fringe Benefit Rate                                 20%                23%
Questioned Fringe Benefits                       $2,390              $2,357               $4,748


  Total FY 2010 Questioned Costs                $14,342             $12,606              $26,949


FY 2011:
Questioned Direct Salaries                      $14,648                                  $14,648
Fringe Benefit Rate                                 20%
Questioned Fringe Benefits                       $2,930                  $0               $2,930


  Total FY 2011 Questioned Costs                $17,578                  $0              $17,578


TOTALS:
Total Questioned Direct Salaries                $84,512             $13,559              $98,071
Total Questioned Fringe Benefits                $16,902              $3,119              $20,021


   TOTAL QUESTIONED COSTS                      $101,414             $16,678             $118,092


 * FY 2008: "Election Coverage" and "Noticiero Latino"
   FY 2009: "Election Coverage," "Noticiero Latino," & "LA Program Service Phase 2"
   FY 2010: "Election Coverage," "Noticiero Latino," & "LA Program Service Phase 2"
   FY 2011: "LA Program Service Phase 2"




                                               36
                                                                                                                                              Exhibit M
     Calculation of Allocation Rates Between CPB Productions Revenue and Other Production Revenues

                                                                                FY 2009                                        FY 2010
Acct #                 Cost Category            FY 2008      Radio Bilingüe      LA Media       Total       Radio Bilingüe       LA Media       Total


459012   Production*                             $399,150           $616,211              $0    $616,211            $777,250             $0     $777,250
459016   Features*                               $162,200           $233,890              $0    $233,890            $137,190             $0     $137,190
459017   News Report*                              $31,525           $32,375              $0     $32,375             $29,375             $0      $29,375
         CPB Production**                        $593,044           $932,500              $0    $932,500          $2,420,088             $0    $2,420,088


               Total Production Related         $1,185,919         $1,814,976             $0   $1,814,976         $3,363,903             $0    $3,363,903


         CPB % of Total Production Revenues      50.0%                                          51.4%                                           71.9%




              Methodology: Percentages calculated by dividing CPB production revenue by total production revenues

              * Production, Features and News Report revenues taken from general ledger accounts.
              **CPB production revenues taken from CPB revenues reported on AFRs.

                         .




                                                                         37
                                                                                                Exhibit N
  Calculation of Allocation Rates Between CPB Revenues and Total Revenues

    Cost Category          FY 2008        Percent        FY 2009       Percent       FY 1010         Percent


Grant Revenues:
 Federal                   $80,480.00                    $179,404.00                 $453,154.00
 CPB                      $828,188.00     28.4%       $1,163,070.00     32.0%      $2,638,786.00     53.3%
 Foundation             $1,171,486.00                 $1,441,363.00                $1,175,715.00
 Local/Other              $159,865.00                    $255,990.00                 $235,888.00


Fundraising               $158,584.00                    $192,786.00                  $28,190.00
Underwriting               $40,041.00                     $32,125.00                         $0.00
Contributions                $5,402.00                     $3,934.00                   $4,553.00
Other Revenue              $26,567.00                      $9,245.00                   $7,779.00


       Sub-Total        $2,470,613.00                 $3,277,917.00                $4,544,065.00


In-kind Contributions     $440,440.00                    $356,830.00                 $402,495.00


           Total        $2,911,053.00     100%        $3,634,747.00     100%       $4,946,560.00     100%



                        Methodology:

                        Percentages calculated by dividing CPB revenues by total revenues.
                        Revenues taken from audited financial statements.




                                                    38
                                                                             Exhibit O

                            SCOPE AND METHODOLOGY

We performed this audit as a compliance attestation examination under the Government
Auditing Standards (GAS) to determine whether RB accurately reported NFFS in
accordance with CPB’s Guidelines; complied with Certification of Eligibility requirements
and selected provisions of the Act; and spent grant funds in accordance with grant
terms. We performed our audit field work during the period April through June 2011.

The scope of the audit included tests of the preparation of the AFRs and the data
reported on them for the Fiscal Years ended September 30, 2009 and 2010. We tested
the accuracy of NFFS claimed on RB’s AFRs by performing financial reconciliations and
comparisons to underlying accounting records and the audited financial statements to
verify transactions recorded in the general ledger and reported on the AFRs. We
evaluated compliance with the Guidelines, in part, by reviewing documentation of cash
receipts, donations, underwriting contract agreements, and reviewing the fair value
reported for in-kind contributions. We tested over $800,000 of the $1.8 million of NFFS
claimed for FY 2009 and over $500,000 of the $1.5 million claimed for FY 2010. We
concentrated our judgmental testing on the larger revenue amounts selected from the
higher risk revenue categories.

CPB places restrictions on how a portion of the Radio CSG can be expended. Thus, we
concentrated our review of CSG expenditures on the restricted portion of the CSG. We
reviewed over $19,000 of the $117,000 of FY 2009 and 2010 restricted CSG funds to
determine compliance with the CSG grant agreement terms.

We reviewed documentation of RB’s compliance with the Communications Act
requirements. Specifically, we reviewed Radio Bilingüe’s public inspection files, Board
of Director meeting minutes and evidence that meetings were announced to the public.
We reviewed the open financial records file and Equal Employment Opportunity (EEO)
documents to ensure they were available for general public inspection in compliance
with the Act. Finally, we reviewed RB’s compliance with CPB’s donor list and political
activities requirements.

To assist in our audit planning and assure ourselves that we could rely on the work
performed by RB’s independent public accountant (IPA), we met with representatives of
the firm that conducted RB’s financial statement audit and attestation work on RB’s
AFRs. We reviewed their tests of internal controls and their fraud risk assessment
analysis. For the attestation review, we also reviewed their test work on the accuracy of
RB’s AFRs.

We gained an understanding of RB’s internal controls over the preparation of the AFRs
and cash receipts as part of our overall risk assessment. We used this understanding
to plan our audit work and to select those areas that posed the greatest risk to the
accurate reporting of NFFS.

                                           39
We also reviewed the “2008 Elections Coverage,” “Noticiero Latino,” “The Economic
Crisis and Latinos: Access to Unemployment Help,” “Los Angeles Latino Program
Service Research & Development, Phase 1,” and LA Program Service Content
Development and Testing, Phase 2” CPB funded grants to determine whether costs
claimed were expended in accordance with the grant terms.




                                         40
